No.

IN THE
SUPREME COURT OF THE UNITED STATES

JAMES EARVIN SANDERS
(Your Name)

— PETITIONER

VS.
Lorie Davis, Director-TDCJ
— RESPONDENT(S)
PROOF OF SERVICE
James Earvin Sanders

____________ , do swear or declare that on this date,
20__ , as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
I,
May 7

The names and addresses of those served are as follows:
David O'Toole
Eastern District of Texas, Sherman
101 E.Pecan Street, Room 216
Sherman. TX 75090-0000
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

May 7

, 20_20

RECEIVED
MAY 2 0 2020

(Signature)

SUPREME COURT OF THE UNITED STATES
OFFICE OF THE CLERK
Washington, DC 20543-0001
June 21,2020

Scott S. Harris, Clerk
Michael Duggan
RE: Sanders v. Davis, Dir. TX DCJ
USCA5 19-40633
No: 19A1008
Dear Sirs :
I would like to apologize to the court for this delay and the
fact that my petition was not postmarked until May 12, 2020. When
I turned it in on Thursday, May 7, 2020, I did not foresee any
reason why it would not have reached the post office on Friday
the 8th or Monday the 11th of May at the latest.
Nonetheless, I have added a addendum to page 22 of the Petition
for Writ of Certiorari certifying that it was indeed placed in the
unit mailing system on May 7, 2020 and that first-class postage
was used.
Hopefully, this is in accordance with Rule 29.2. This time the
petition will be sent to the Allred Unit Law Library to be mailed
indigent, as that is my current financial status. It will be placed
in the mailing system today, June 21, 2020, which is Sunday. It was
received--returned--on Friday, June 19, 2020, from Ms. Shryl Maulden .
SIGNED this 21st day of June, 2020.

RECEIVED
Respectfully

JUL - 2 2020
OFFICE OF THE CLERK

James E.
#1579328
2101 FM 369N
Iowa Park, TX 76367
Allred Unit

